Ln
|

C@OCKLE

E-Mail Address:
Legal Briefs contact@cocklelegalbriefs.com

2311 Douglas Street

Omaha, Nebraska 68102-1214
Est. 1923

1-800-225-6964 Web Site
(402) 342-2831 www.cocklelegalbriefs.com
Fax: (402) 342-4850

No. 20-261

JEFF SCHULZ, et al.,
Petitioners,
v.
THE PRESBYTERY OF SEATTLE, et al.,
Respondents.

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the BRIEF FOR THE
ANGLICAN CHURCH IN NORTH AMERICA AS AMICUS CURIAE IN SUPPORT OF
PETITIONERS in the above entitled case complies with the typeface requirement of Supreme
Court Rule 33.1(b), being prepared in New Century Schoolbook 12 point for the text and 10 point
for the footnotes, and this brief contains 5768 words, excluding the parts that are exempted by
Supreme Court Rule 33.1(d), as needed.

Subscribed and sworn to before me this 2nd day of October, 2020.
I am duly authorized under the laws of the State of Nebraska to administer oaths.

GENERAL NOTARY-State of Nebraska
fe ne toeraces RENEE J, GOSS fons] Aepse. 0. owe Qudaw- &. Chih

My Comm. Exp. September 5, 2023

 

Notary Public Affiant 40209
